<html>
<title> - OVERVIEW OF SECURITY ISSUES IN EUROPE AND EURASIA</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                    OVERVIEW OF SECURITY ISSUES IN 
                           EUROPE AND EURASIA

=======================================================================


                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON EUROPE AND EURASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 5, 2011

                               __________

                           Serial No. 112-44

                               __________

        Printed for the use of the Committee on Foreign Affairs


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
66-174 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

                   Subcommittee on Europe and Eurasia

                     DAN BURTON, Indiana, Chairman
ELTON GALLEGLY, California           GREGORY W. MEEKS, New York
GUS M. BILIRAKIS, Florida            ELIOT L. ENGEL, New York
TIM GRIFFIN, Arkansas                ALBIO SIRES, New Jersey
TOM MARINO, Pennsylvania             THEODORE E. DEUTCH, Florida
JEAN SCHMIDT, Ohio
TED POE, Texas














                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Daniel Benjamin, Coordinator for Counterterrorism, 
  U.S. Department of State.......................................     8
Mr. Mark Koumans, Deputy Assistant Secretary-International 
  Affairs, U.S. Department of Homeland Security..................    23
Gary J. Schmitt, Ph.D., resident scholar and director of Advanced 
  Strategic Studies, American Enterprise Institute...............    40
Ms. Sally McNamara, senior policy analyst, European Affairs, 
  Margaret Thatcher Center for Freedom, The Heritage Foundation..    54

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana, and chairman, Subcommittee on Europe and 
  Eurasia: Prepared statement....................................     4
The Honorable Daniel Benjamin: Prepared statement................    11
Mr. Mark Koumans: Prepared statement.............................    25
Gary J. Schmitt, Ph.D.: Prepared statement.......................    43
Ms. Sally McNamara: Prepared statement...........................    57

                                APPENDIX

Hearing notice...................................................    78
Hearing minutes..................................................    79
Questions submitted for the record to the Honorable Daniel 
  Benjamin and Mr. Mark Koumans by the Honorable Dan Burton......    80
Questions submitted for the record to the Honorable Daniel 
  Benjamin and Mr. Mark Koumans by the Honorable Ted Poe, a 
  Representative in Congress from the State of Texas.............    85

 
           OVERVIEW OF SECURITY ISSUES IN EUROPE AND EURASIA

                              ----------                              


                         THURSDAY, MAY 5, 2011

                  House of Representatives,
                Subcommittee on Europe and Eurasia,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room 2200, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the subcommittee) presiding.
    Mr. Burton. First of all, welcome to everybody. We are 
going to be starting here pretty close to on time. I think some 
of my Democrat colleagues found out that we were getting out 
early today, and I think they have all hit the airports. So I 
hope they show up, and we may have a few more of my Republican 
colleagues be here.
    The purpose of today's hearing is to provide subcommittee 
members with a broad overview of security issues in Europe and 
Eurasia. Terrorism remains the biggest threat to the collective 
security of the transatlantic community. As a result, the goal 
of this hearing is to assess the status of cooperation between 
the United States and the countries and organizations within 
the jurisdiction of this subcommittee in regards to 
counterterrorism.
    Last Sunday night, the world learned that an elite American 
unit had killed Osama bin Laden. This is a strategic victory 
for the United States, our European allies, and the rest of the 
free world. I would like to personally congratulate the Bush 
and Obama administrations, including the witnesses here before 
us, today, as well as the intelligence community, our diplomats 
and law enforcement; but most importantly, I would like to 
thank all of our men and women in uniform, especially those in 
the Unit 6 that did such a great job under great stress.
    Great risk and relentless resolve on their part produced 
this great victory.
    The events of last Sunday inevitably remind us of the 
tragedy of September the 11th, 2001. Those we lost that day 
remain in our hearts and our minds. However, we must also 
recognize that due to the vigilance of the American troops, law 
enforcement officers, and ordinary citizens, the mass murderer 
behind the attacks of 9/11 was unable to strike the United 
States again before we got him.
    We may never know all of the details about the operation 
which led to the death of bin Laden. We do know that civilian 
and military elements of the United States Government worked 
with international partners, for years, to track him down. We 
are here to learn more about, and to encourage, such 
counterterrorism cooperation. Specifically, we seek to 
strengthen ongoing efforts with our European and Eurasian 
allies, including the sharing of information, resources and 
successful practices.
    Counterterrorism cooperation is working in Afghanistan. Our 
European allies have made and continue to make significant 
contributions to the International Security and Assistance 
Force. Our Eurasian and Central Asian partners also assist, 
either by deploying troops or allowing the transport of 
essential supplies through their territory, as part of the 
Northern Distribution Network.
    I was pleased to read this week that Kazakhstan ratified an 
agreement that formalizes the arrangements, under which 
thousands of flights have crossed Kazakh airspace since 2001. 
Such contributions are essential and must continue. Our mission 
in Afghanistan is not yet complete.
    Counterterrorism cooperation with our European and Eurasian 
allies must be global in scope. Today, I am interested in 
hearing how the United States is working with European and 
Eurasian allies to address the threat posed by al-Qaeda in the 
Arabian Peninsula, former Al Shahaab on the Horn of Africa, as 
well as other goofs that may be operating within this 
subcommittee's jurisdiction, including the Caucasus and Central 
Asia.
    The United States can learn from the approaches taken by 
our European allies. I am particularly interested in how our 
allies approach counterterrorism and share successful 
practices. For instance, the United Kingdom and the Netherlands 
have implemented programs that work with communities to counter 
radicalization. It would be helpful to understand how officials 
from the Department of Homeland Security, posted at our 
Embassies in capitals throughout Europe and Eurasia, can bring 
such innovative practices here, to Washington. So I am hoping 
you will address that when we hear your testimony.
    Terrorism threatens not only our lives but our way of life. 
I hope that our witnesses will describe the administration's 
efforts and the efforts of our European and Eurasian partners 
to balance security concerns with the need of robust 
transatlantic trade and tourism. Trade with Europe and Eurasia 
is vital to the American economy and supports hundreds of 
thousands of American jobs across all 50 States. This trade 
must continue. Thus, I look forward to hearing about 
initiatives such as the Visa Waiver Program that seek to 
provide access to the United States and American markets in 
return for commonsense precautions.
    I am in favor of expanding this program to include 
additional qualifying European partners as well as historic 
allies such as Taiwan. And I was just in Taipei recently, and 
they made the case that we ought to recognize them for this 
program.
    To foster trade, the United States has assigned our hopes 
to several additional elements with our European and Eurasian 
partners. For example, negotiations continue with the European 
Union on a renewed passenger name record agreement. It is my 
hope that such an agreement will deepen mutual trust and 
bolster confidence across the Atlantic. Our common security and 
prosperity depend on us working together.
    And finally, we must look at terrorism in the context of 
events that are taking place in the Middle East, North Africa, 
which some have called the ``Arab Spring.'' Al-Qaeda's role in 
these uprisings has been nominal so far. Instead, the American 
ideals of freedom, democracy, and opportunity have inspired 
many.
    However, I am concerned that these uprisings could create 
an opening--and I hope you'll address this--an opening for 
radical groups such as Hamas and the Muslim Brotherhood to 
increase influence or even acquire a base in the region, a 
country from which they could threaten the United States, 
Israel, and our European allies across the Mediterranean.
    It is important to understand that these radical groups do 
not have to convert people to their twisted version of Islam in 
order to gain support. Instead, Hamas and the Muslim 
Brotherhood have a record of mobilizing resources collected 
abroad to provide goods and services, food aid, and medical 
care to those who would otherwise not have access to such 
necessities.
    The United States and our European allies must take action 
against such a strategy. We have a tendency to think of this 
Arab Spring as one event; however, the situation in each of 
these countries is different. The events in Libya have not 
mirrored those in Egypt, and Syria presents different 
challenges then Yemen.
    I am interested in the witnesses' assessment of what we are 
doing to support moderate democratic forces in each country. I 
am also interested in how these uprisings, each individually, 
impact the United States counterterrorism strategy and 
cooperation with European and Eurasian allies.
    The death of Osama bin Laden marked a major victory. But 
let us be clear: The fight is far from over. The United States 
and our allies must stay committed to the counterterrorism 
mission in Afghanistan and around the world. This subcommittee 
will do what it can to help. We will continue to focus on 
terrorism, and we will examine it from all angles. And we will 
be traveling extensively throughout Europe to find out what our 
allies feel about all of these issues.
    I want to thank our witnesses and members for participating 
in this hearing, and I look forward to a productive discussion.
    [The prepared statement of Mr. Burton follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Burton. Now, my minority member is not here, so I will 
recognize Mr. Poe of Texas for his remarks.
    Mr. Poe. Thank you, Mr. Chairman.
    Like many Americans, I am worried that Pakistan is not as 
good a friend as we think they are, at least as much as they 
claim they are a friend of the United States. Capturing Osama 
bin Laden was a great moment in not only our history, but world 
history. But it also revealed how unstable our relationship is 
with Pakistan.
    I, too, want to commend those that were involved in this 
operation, the President, for making the decision to go and 
take out Osama bin Laden in his compound, all of the 
intelligence agencies, and especially, the Navy SEALs. Osama 
bin Laden has met his maker, and I appreciate the Navy SEALs 
for arranging the meeting.
    Let's look at the facts. Bin Laden was hiding in a city 
just miles from the capital city of Pakistan. His house was a 
massive million dollar compound, eight times the size of 
surrounding houses, had 15-foot high walls, had barbed wire. 
Once in, we can now see that the compound had been built 
especially for Osama bin Laden and his hideaway or hideout.
    And perhaps the worst thing of all, the compound was just a 
stone's throw away from the West Point of Pakistan. It would be 
like John Dillinger living across the street from the FBI 
building down the street, and the FBI not knowing about it. It 
is very perplexing that Pakistan claims they were unaware. Even 
the administration shares those suspicions. The CIA Director, 
Leon Panetta, asserted that Pakistan had not done enough to 
bring Osama bin Laden to justice; now saying that ``There is 
total mistrust between the United States and Pakistan.'' Those 
are strong words from the person who is the CIA director.
    John Brennan, the Deputy National Security Adviser for 
Homeland Security and Counterterrorism, said it is 
inconceivable that Osama bin Laden had not a support system to 
help him inside of Pakistan.
    And, also, a year ago, U.S. Secretary of State Hillary 
Clinton, following a trip to Pakistan, said in an interview 
with Fox News that elements within the Pakistani State know the 
whereabouts of the al-Qaeda chief.
    So it seems to me that Pakistan was totally incompetent in 
their security operations, or they knew of the location of 
Osama bin Laden and hid him out. If Pakistan was active in 
helping Osama bin Laden hide from us, I certainly don't think 
that we should be giving them $3 billion of American aid. It 
doesn't seem to make us any safer to give American money to a 
country that may be playing both sides of the field.
    I have introduced the Pakistan Foreign Aid Accountability 
Act which freezes any foreign aid to Pakistan until the 
Secretary of State can certify to Congress that Pakistan was 
not aware of bin Laden's location. In other words, did Pakistan 
give bin Laden sanctuary? They have the opportunity to make 
their case or not make it before we give them any more money.
    America just wants some answers. Where do we stand, where 
does Pakistan stand with the United States? President Bush 
stated in his joint session to Congress after 9/11, to our 
allies, that you are either with us or you are with the 
terrorists. And I would like to know where Pakistan is in that 
group. There is no middle ground.
    I would also like to know what is going on with the MEK 
Foreign Terrorist Organization (FTO) designation. Over 230 days 
ago, a Federal court ruled the State Department did not give 
the MEK due process when it decided to keep the MEK on the FTO 
list. The law states that reviews are to take place within 180 
days should a group appeal its designation. It has been past 
120 days. It is now 230 days.
    During this time, the MEK has been attacked by the Iraqi 
military. UNAMI has confirmed that the Iraqi soldiers killed 34 
residents at Camp Ashraf--34 residents, I might add, that have 
yet to be buried--yet to be buried because the Iraqis refuse to 
allow them to be buried. High-ranking public officials in the 
Iraqi regime repeatedly cite the U.S. terrorist designation as 
their justification for treating the residents of Camp Ashraf 
so harshly.
    Two battalions that invaded on April 8th are still in Camp 
Ashraf. Iraqi troops will not let residents bury the dead, as I 
mentioned. They also won't let anyone come in for regular 
visits. U.S. representatives have not instigated an 
investigation. The U.N. has not instigated an investigation. 
And, of course, Iraq has not. Of course we wouldn't expect 
those people responsible for the action to instigate an 
investigation.
    And, all of this to me, seems to be compounded and made 
more difficult because the State Department just won't take a 
position on the MEK. It is like we say in Texas, it is time to 
fish or cut bait. Either keep them on the list or take them off 
the list, but make a decision. Of course, I think the evidence 
points to the fact that they should be taken off the list. But 
this delay, delay, delay, not being able to make a decision for 
whatever reasons, is, I think, a problem that the State 
Department can resolve, and it is within the State Department's 
power to resolve that matter.
    So those are some questions and concerns that I have, and I 
would hope that these can be answered. I have introduced H. 
Res. 60, which urges the Secretary of State to take the MEK off 
the FTO list. We have 65 bipartisan colleagues, who agree with 
that, and who have signed on as cosponsors. I would hope the 
State Department can make a decision before this bill gets 
before this committee and on the House floor.
    Thank you, Mr. Chairman. I yield back the rest of my time.
    Mr. Burton. Let me state to my witnesses before I yield to 
my colleague from Arkansas, I know that you are here to talk 
about Europe and Eurasia, and Pakistan and the issues that were 
just raised by my colleague are under the Middle East 
Subcommittee's purview. But, I hope you will address those 
issues, because I share his concern about everything he said, 
and I agree with all of them. So as much as is humanly 
possible, I hope that you will include those in your thoughts 
and remarks when we get to the questions.
    With that, I will yield to Mr. Griffin, my old buddy from 
Arkansas.
    Mr. Griffin. Thank you, Mr. Chairman.
    First of all, I want to say thank you for holding this 
hearing, and thank you to the witnesses for coming.
    I think that this topic is as relevant, or more relevant 
than ever, in the wake of the killing of Osama bin Laden.
    What I am particularly interested in--and maybe I can get 
to follow up with some questions, but I want to throw this out 
there so the witnesses will maybe be able to address this in 
the context of the other questions--is the impact that a 
leaderless al-Qaeda has on the disparate terror cells that are 
spread throughout the European continent and what, if any, 
changes we might see in terms of an increased threat or 
decreased threat.
    I could make the case, in the absence of one leader, that 
there could be an increased threat and increased independence 
of the disparate groups that are on the European continent. So 
I just ask you to keep that in mind. And, if you could address 
that, I would appreciate it.
    Thank you. I look forward to hearing your testimony.
    Thank you, Mr. Chairman.
    Mr. Burton. Now we will hear from my colleague from Ohio, 
Ms. Schmidt.
    Mrs. Schmidt. In the interest of time, I am going to pass.
    Mr. Burton. She yields back her time. Let me introduce our 
witnesses here today.
    I want to thank you both for being here and thank you for 
your patience.
    Daniel Benjamin was sworn in as Coordinator for 
Counterterrorism at the Department of State with the rank of 
Ambassador at Large on May 28, 2009. From 1994 to 1999, Mr. 
Benjamin served on the National Security Council staff, and in 
1994 to 1997 he served as foreign policy speechwriter and 
special assistant to President Clinton. Before entering the 
government, Mr. Benjamin was a foreign correspondent for Time 
Magazine and the Wall Street Journal.
    That must have been an interesting switch when you went 
from Time Magazine to the Wall Street Journal. Someday, I would 
like to talk to you about that.
    Mark Koumans is Deputy Assistant Secretary for 
International Affairs at the Department of Homeland Security. 
Mr. Koumans is responsible for coordinating the department's 
international programs and policy to achieve the Secretary's 
international strategic objectives. Mr. Koumans has previously 
served as director for European and multilateral affairs in the 
Department of Homeland Security, Office of International 
Affairs, from June 2007 to August 2008. Prior to joining DHS in 
June 2007, Mr. Koumans served for 17 years in the U.S. Foreign 
Service.
    So welcome to you both, and we will recognize you, 
Ambassador Benjamin. If your statement is going to be 
excessively long, we will accept it for the record but we will 
give you as much time as we think is reasonable.

  STATEMENT OF THE HONORABLE DANIEL BENJAMIN, COORDINATOR FOR 
           COUNTERTERRORISM, U.S. DEPARTMENT OF STATE

    Ambassador Benjamin. Thank you very much, Chairman Burton 
and distinguished members of the committee. I have submitted 
testimony for the record that provides additional detail of the 
U.S. counterterrorism cooperation with Europe and Eurasia.
    I want to thank you for the opportunity to appear before 
you today. And, I must say, it is a great pleasure to testify 
during the week when the United States has achieved a historic 
success against al-Qaeda. Osama bin Laden's death is a victory 
for the United States and for all human beings who seek to live 
in peace, security and dignity.
    And, sir, you mentioned my service on the National Security 
Council for the last 2 years of that time. I was director for 
transnational threats and was there when bin Laden issued his 
famous fatwa calling for the deaths of Americans everywhere, 
and when our Embassies were blown up. So, for me, this has 
great personal significance.
    I should underscore, though, that this is by no means the 
end of our effort against al-Qaeda. While we have dealt a blow 
to al-Qaeda's leadership, much of its activity has devolved to 
its affiliates and much more work remains to be done.
    But as we approach the 10th anniversary of the 9/11 
attacks, we should recognize that one of the unsung success 
stories of the period since that dark day has been the creation 
of an extraordinary global alliance against terror, one that 
operates out of the headlines, but reliably, closely, and 
effectively to protect our citizens and innocents around the 
world.
    In the critical areas of intelligence and law enforcement, 
governments have joined together time and again, and prevented 
real attacks, including ones planned against planes crossing 
the Atlantic and public transportation systems worldwide.
    Our European allies have responded extremely positively to 
this week's development. And, in a public statement, the 
European Union paid tribute to our determination and underlined 
the close cooperation between the EU and the U.S. in 
counterterrorism efforts.
    But various statements by European governments also noted 
that al-Qaeda remains a serious threat. Europe very much 
remains a focus of terrorist plots. And, over the past year, we 
saw several attempted attacks by al-Qaeda and affiliated 
extremists in Denmark, a first-ever suicide bombing in 
Scandinavia, and separatists group bombings on the Moscow metro 
and in the Russian North Caucuses.
    Our counterterrorism work with Europe spans the globe. We 
work with our NATO partners and ISAF on stability operations in 
support of the Government of Afghanistan. We have been working 
with our European allies, and others, in the Friends of Yemen 
process, and we are increasing our coordination with France and 
other European partners to constrain the environment, in which 
al-Qaeda in the Islamic Maghreb operates, by strengthening 
governance in northern Mali and the capabilities of other 
regional partners. Such work helps us deny safe haven to 
terrorists, which is absolutely vital.
    To deal with the terrorist threat and identify individuals, 
who are preparing to commit violence, information sharing is 
absolutely essential. The United States and the EU are 
committed to fostering information sharing in cooperation in 
the prevention, investigation, and prosecution of terrorism-
related offenses. We work on these issues through the United 
States Treasury's Terrorist Finance Tracking Program, the 
Department of Homeland Security's Passenger Name Record 
program, and Homeland Security Presidential Directive 6, known 
as HSPD-6.
    There have been some concerns raised in Europe about these 
programs. But we know that our approaches to protecting privacy 
have more similarities than differences, and, we share a strong 
commitment to protecting civil liberties. I am confident that 
with goodwill on both sides and the common sense of resolve, we 
can achieve the common goals we seek.
    Another crucial aspect of our CT cooperation is our 
bilateral work with key partners to build CT capacity of other 
nations around the world. Our European allies from Russia in 
the east to the United Kingdom in the west, and from Italy in 
the south to the Netherlands and Denmark in the north, share 
our views on implementing strategic counterterrorism policies 
that focus on building the capacity of foreign partners and 
countering violent extremism to stem terrorist recruitment.
    While al-Qaeda and its affiliates are our highest priority 
in our CT diplomatic engagement, Hamas and Hezbollah also 
remain a major focus. We have been and will continue to work 
through bilateral channels to press our European allies to take 
more aggressive action to crack down on Hamas and Hezbollah's 
fundraising at both the EU and member state levels, and I have 
made this a personal priority.
    In conclusion, the magnitude and breadth of the terrorist 
challenge makes clear that no country or organization can 
defeat it alone and the United States will, indeed we must, 
continue to work closely with our partners around the world, 
especially our capable and willing European allies, to identify 
areas where further work remains to be done and how we can 
further collaborate ever more effectively. Only through such 
cooperation can we succeed.
    Thank you. And I look forward to your questions.
    [The prepared statement of Ambassador Benjamin follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Burton. And now we will hear from Secretary Koumans.

   STATEMENT OF MR. MARK KOUMANS, DEPUTY ASSISTANT SECRETARY-
  INTERNATIONAL AFFAIRS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Koumans. Good afternoon, Chairman Burton and 
distinguished members of the subcommittee. Thank you for the 
opportunity to testify on the Department of Homeland Security's 
cooperation with Europe.
    First, like you, I would like to acknowledge the 
achievement of this past week. As Secretary Napolitano said, 
the death of Osama bin Laden is an important success not only 
for the United States but for the entire world.
    I would like to recognize the statements of support from 
Europe, including the EU Commission President Barroso and 
counterterrorism coordinator de Kerchove.
    But we all agree, as we have all said this afternoon, that 
bin Laden's death is not the end of our security efforts. Al-
Qaeda and other organizations will continue to plan attacks 
here and abroad, and so we must remain vigilant. Security is 
more of a shared responsibility than ever before.
    Preventing terrorism is DHs' core mission and one that 
forms part of its other key missions of securing borders, 
enforcing immigration laws, safeguarding cyberspace, and 
ensuring resilience to disasters. In order to succeed, the 
Department must work with its international partners. The 
attempted terrorist attacks on Christmas Day in 2009 and the 
printer bombs in October 2010 underscored the interdependence 
of our homeland security with international security.
    Terrorists and criminals look for vulnerabilities in 
international networks to carry out their attacks.
    I would like to highlight three points.
    The first is that DHS works with our European allies to 
prevent terrorist attacks.
    Second, DHS and its European partners cooperate in 
particular to prevent terrorist travel.
    Third, the Visa Waiver Program provides incentives to 
maintain high security standards and deepen cooperation with 
the United States.
    My first point concerns how DHS works with our European 
partners to secure the flow of travel and trade. To that end, 
DHS has nearly 400 employees in Europe, working daily with 
governments, the traveling public, the aviation industry, cargo 
shippers and others. It is DHs' goal to expedite legitimate 
travel and trade, both of which are critical to the U.S. 
economy, while preventing the flow of illicit goods and people 
and investigating illegal activity.
    Much of this DHS cooperation takes place at the operational 
level, investigating transnational crimes, combating human and 
drug trafficking, screening U.S.-bound maritime cargo 
containers, conducting maritime port assessments, assessing 
airports and air carriers, conducting passenger screening, 
enforcing U.S. customs and immigration regulations, and 
investigating cybercrimes.
    On my second point, terrorist travel represents one of the 
greatest threats to European and U.S. security, and therefore, 
detection and disruption are key goals. Every week, there are 
more than 2,500 flights between Europe and the United States. 
DHS analyzes travel and passenger data and shares information 
with our European partners in order to identify both known and 
unknown potential terrorists. DHS has a number of programs to 
address this threat.
    Under the immigration advisory program, DHS posts officers 
at foreign airports to work with airlines and foreign officials 
to identify high-risk and improperly documented travelers 
before they board aircraft bound for the U.S.
    Another example is DHS collection and analysis of passenger 
name records, or PNR data. In recent years PNR data has been 
pivotal in cracking the cases of Mumbai plotter David Headley, 
New York City subway bomb plotter Najibullah, and Time Square 
bomber Faisal Shahzad. I just note in passing that we just 
passed the 1-year anniversary May 1st, coincidentally the same 
day of Osama bin Laden's demise.
    Last year approximately one quarter of those individuals 
denied entry to the United States for having ties to terrorism 
were initially identified through the analysis of PNR. 
Presently, we are negotiating a new agreement with the EU to 
govern DHs' use of PNR to avoid a potential conflict with the 
European privacy law.
    I should emphasize that DHS is not negotiating for the 
collection of PNR, which is required by U.S. law, but to ensure 
a stable and secure legal environment under which it is 
transferred. Our goal is to improve security while reassuring 
our allies of our commitment to protect individual privacy. 
Since December, we have held six negotiating sessions. And we 
hope to conclude these talks in the coming weeks or months.
    I will now turn to my third topic, the Visa Waiver Program. 
Since 1986, this program has allowed eligible citizens to 
travel to the U.S. for business or tourism without first 
obtaining a visa. The 36 current visa waiver countries are 
among our closest international partners. Thirty visa waiver 
countries are in Europe. By statute, these countries develop a 
security partnership with the U.S., and DHS conducts regular 
detailed reviews of each country. These reviews focus on U.S. 
law enforcement, national security, and immigration interests, 
and incentivize these countries to continue to share 
information vital to our national security.
    Chairman Burton and distinguished members of the 
subcommittee, I look forward to working with you as we continue 
to explore opportunities to advance our cooperation with 
European partners. I will submit longer testimony officially 
for the record. I thank you again for this opportunity to 
testify.
    I look forward to answering your questions.
    Mr. Burton. Thank you very much.
    [The prepared statement of Mr. Koumans follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Burton. Before I get to my questions, I would like to 
just once again stress that I just got back from Taipei, 
Taiwan, and they have been a great ally for a long time and 
they should be a top candidate, I would hope, for the Visa 
Waiver Program. And I hope you and the Department will look 
seriously at that.
    The first question I have is after bin Laden's death there 
may be some changes in attitudes around the world. And with our 
continued commitment to freedom in the Middle East, Afghanistan 
and elsewhere, and stopping al-Qaeda and the Taliban, do you 
think that the attitudes of our allies that have been working 
with us in those areas in those endeavors will change? Will 
they remain as committed as they have been, or do we expect any 
change, or have we seen any change?
    Ambassador Benjamin. Thank you for that question, Mr. 
Chairman.
    I think that our expectation is that our allies will retain 
the same sense of urgency, the same sense of mission that has 
characterized the cooperation we have had for many years now.
    If you look at the statements from any number of different 
European leaders, they were quite clear that this is a 
milestone achievement, but it is by no means the end of the 
threat. They all experienced the heightened threat environment 
in the fall. Germany arrested three terrorists in the midst of 
a conspiracy just a few days ago. I think there is a widely 
shared understanding among the governments of Europe that this 
threat is by no means over.
    Mr. Burton. So you anticipate the commitment to Afghanistan 
will remain just as strong as ever?
    Ambassador Benjamin. As you know, there have been a number 
of different statements about troop levels and things like that 
in Afghanistan in particular, but overall, we note that our 
European allies have supplied a large number of troops, a large 
number of teams for training police and other parts of the 
Afghan Government. And we certainly hope that they will 
continue to do so. I don't think that this event is going to, 
in itself, trigger any kind of sea change.
    Mr. Burton. Thank you.
    One of the concerns I have involves the Middle East. I was 
senior Republican on the Middle East the previous 2 years. And 
as my colleague from Texas was alluding to a few minutes ago, 
we are concerned about what is going on in the Middle East. And 
what I would like to ask both of you is, our allies in Europe, 
Europe and Eurasia, what is their attitude and what are they 
going to be doing from your perspective to help us make sure 
that the entire northern tier of Africa, as well as the Persian 
Gulf, doesn't go up in smoke.
    In particular, I am very concerned and I would like to know 
the attitude of our European and Eurasian allies--I am very 
concerned who is going to take over in Egypt, who is going to 
take over in Libya should Muammar Gaddafi be gone, what is 
going to happen in Syria? All of these areas that will affect 
the entire world are in the Middle East, and they are supplying 
energy in large part for many of the countries in Europe and 
Eurasia.
    So I know this is a pretty broad question, but I would like 
to know what your assessment is, both of your assessment is, 
about what is going to happen in those countries and what you 
project in the future.
    I mean, if Egypt goes to the radical elements, like the 
Muslim Brotherhood, if Syria goes from Assad to a radical 
element governing that country, if Muammar Ghadafi leaves and 
radical elements connected to al-Qaeda--and we know they are 
there--were to be able to take over that country, what would 
that mean, and what are we doing to stop it, and what are our 
allies trying to do to help us in that endeavor?
    Ambassador Benjamin. As you said, Mr. Chairman, it is a 
very broad question, but let me take a quick stab at it.
    Our allies are every bit as concerned as we are about the 
fate of the region. We are all, of course, stunned by the 
rapidity with which we have seen change come to the region. 
There is a broadly shared desire to see Egypt, Tunisia, and 
such other countries as hang in he balance, evolve in a 
democratic way that meets the aspirations of their people.
    As you know, we have very close cooperation with the 
Europeans on what is going on in Libya. We have coordinated 
closely in terms of our assistance and our messaging to Tunisia 
and Egypt, and we have also coordinated closely, for example, 
on our outrage at the intolerable crackdown that has occurred 
in Syria. And this is just a sampling of our coordination. It 
is by no means meant to be exhaustive.
    I would say that we are working together to ensure that we 
do see the kind of Middle East emerge that we would like to 
see. We are, of course, all concerned that terrorists will try 
to exploit this moment because, although the Arab Spring, as 
you mentioned, has been in its own way a strategic blow to al-
Qaeda and its adherents because it showed they were not part of 
the revolutionary movement, they were not part of the story 
there, and in fact, the events themselves demonstrated the 
falseness of one of their core beliefs, which is that only 
violence would change these countries, we view these as being 
very, very positive developments.
    But that said, terrorists will try to insert themselves 
wherever they see an opportunity. And as there are some 
distracted security services in the region, and border security 
may not be what it once was, they may see this as a moment of 
opportunity.
    As you can imagine, we are working closely through 
diplomatic, intelligence, law enforcement and military channels 
to do what we can to ensure that the region maintains its 
security and to ensure that terrorists do not have an 
opportunity to exploit this moment.
    It is still very early days, but I think we are still 
optimistic about the trajectory of the region.
    Mr. Burton. I am about to yield to my colleague from Texas 
because I have used a lot of time already, but I would just 
like to urge Homeland Security and the State Department to do 
everything, along with our allies, as humanly possible to make 
sure that we don't have radical elements take over in Egypt, 
Syria, or some of those other countries.
    I understand and I think we all acknowledge that we have 
had some repressive administrations over there. Mubarak was 
very difficult in Egypt; in Syria, Assad, there has been a lot 
of repression there. Throughout the entire northern tier of 
Africa and even in the Persian Gulf we have had those problems. 
But the one thing I don't think the world can tolerate or live 
with is several more Irans popping up on the northern tier of 
Africa and in the Persian Gulf, because we might not be able to 
get enough energy, since we are not drilling here in America, 
we might not be able to get enough energy to turn the lights 
on. So this is a very important issue, and I would just like to 
urge you to make this a top priority.
    And with that, I will yield to my colleague from Texas.
    Mr. Poe. Thank you, Mr. Chairman. I will follow up on my 
opening comments.
    Now that Osama bin Laden is dead, who would you rank as the 
number one terrorist group in the world opposing the United 
States?
    Ambassador Benjamin. Well, sir, undoubtedly al-Qaeda 
remains the foremost terrorist threat we face, operating either 
from the al-Qaeda core base in the Pakistan/Afghanistan region 
or through its affiliates in Yemen, in northeastern Africa and 
then northwestern Africa. So as the President has said, as many 
others have said, this is a historic achievement, but this is 
by no means the end of the story. If anything, I think it 
demonstrates our determination to continue to remove al-Qaeda 
threats that we face.
    Mr. Poe. I agree that the death of Osama bin Laden shows 
other terrorists that the United States is resilient and will 
do whatever we can, for as long as it takes, to make sure we 
are safe.
    CIA Director Panetta made the comment that there is a 
mutual distrust between Pakistan and the United States now that 
we have found him harbored in the country for so long. Do you 
share that opinion, Mr. Ambassador?
    Ambassador Benjamin. Well, the late Ambassador Richard 
Holbrooke, the Secretary of State, the President, have all said 
on numerous occasions that there has been a trust deficit 
between our countries that we are working hard to overcome. As 
John Brennan said, we are also going to look at the question of 
what systems there were to support Osama bin Laden in 
Abbottabad, and to make it possible for him to live there 
unmolested for such a long time.
    Do think, though, that it is important to emphasize, as the 
Secretary said this morning, that our relationship with 
Pakistan, while it occasionally has its challenges, is a 
productive one; that more terrorists have been apprehended or 
killed in Pakistan than anywhere else, and that this 
collaboration between our countries has been absolutely vital 
to degrading the al-Qaeda threat over quite a number of years. 
So it is a complicated picture, but it is a vital relationship 
and we need to keep working on it.
    Mr. Poe. I understand it is complicated but my question is 
do you believe that the Pakistani Government knew that Osama 
bin Laden was in their country? That is just a simple yes or 
no.
    Ambassador Benjamin. I believe that they thought there was 
a good chance that he was somewhere in Pakistan. I can't 
imagine, given all of the focus on fighting extremism, 
especially in the Federally Administered Tribal Areas, that 
they didn't think, or that they were certain he was not in 
their country. Whether or not they knew he was in Abbottabad, I 
think that probably came as a much greater surprise to them.
    Mr. Poe. Of course, the United States didn't notify 
Pakistan that we were coming in to take him out, and they have 
now objected and said that strained our relationship. So my own 
opinion, they knew or they are totally incompetent in their 
intelligence field.
    Let me switch gears a minute and ask you a couple of 
questions about MEK. Every time we get together I ask you about 
the MEK, and I hope that we get some answers someday.
    Is the State Department going to take them off the list and 
if they are, when? And if not, when? When are you all going to 
make a decision?
    Ambassador Benjamin. Sir, I am afraid the answer is the 
same one as when we saw each other a couple of weeks ago. We 
are working as expeditiously as possible to complete the review 
that the U.S. Court of Appeals ordered. As recently as April 
6th we received new material from MEK counsel, and we are 
reviewing it, and just as fast as we can, we are going to get a 
recommendation package to the Secretary and have a decision 
made.
    Mr. Poe. 6 months? A year? Do you have any idea?
    Ambassador Benjamin. I can't give you a certain date, but I 
can tell you it will be less than 6 months, considerably less, 
I hope.
    Mr. Poe. As a follow-up, I have attended, as many members 
have, all of the classified briefings that I am aware of on 
this issue. Has any new information come to surface in the last 
2 months that would help Members of Congress on this issue, 
classified or not?
    Ambassador Benjamin. As I mentioned, sir, we have received 
new information as recently as last month from the MEK itself. 
And so we are reviewing that information and seeing if it helps 
in our deliberations.
    Mr. Poe. All right. I will yield back the remainder of my 
time. Thank you, Mr. Chairman.
    Mr. Burton. I apologize, I missed part of your question, 
Mr. Poe. Did you ask about what our State Department is doing 
to urge that those people who have not been buried would be 
dealt with? Are you aware of what he asked earlier on? I mean, 
if those people were killed some time ago and for whatever 
reason they are not being taken care of properly, it seems 
since we are a strong supporter of Iraq and the Iraqi 
Government, we ought to be doing everything we can to make sure 
that is taken care of immediately.
    Ambassador Benjamin. I fully agree, and as soon as I get 
back to the Department I will check with my various colleagues.
    Mr. Burton. Would you let me and Mr. Poe and others on the 
subcommittee know about that?
    Ambassador Benjamin. Certainly.
    Mr. Burton. I yield to my colleague from Arkansas, Mr. 
Griffin.
    Mr. Griffin. I want to shift gears and talk about Russia 
some.
    On the Judiciary Committee, we have looked into the issue 
of piracy, and a lot of that, it seems, stems from illegal 
activities in Russia, some by organized crime. And when I look 
at some of the official cooperation with European countries on 
terrorism and law enforcement and the many different areas that 
we cooperate with our European allies, I often see Russia 
included in some of those agreements and relationships. That 
sends a signal that Russia is helpful and a partner on a lot of 
these issues.
    I would just like to get your take on--both of you--on the 
issue of Russia; how reliable are they on issues like piracy 
and have they cooperated with us? And then, I would like you to 
also address the role of organized crime in Russia. We are not 
hearing as much about it as we did maybe 5 years ago, I think 
it is fair to say, just in terms of press coverage. I don't 
know if that is because it has become so routine or maybe it 
has decreased.
    If you could comment on the role of organized crime in 
Russian society today, and how that impacts, if at all, the 
official Russian Government's cooperation with us on 
counterterrorism and things like piracy. I would welcome your 
comments on that.
    Ambassador Benjamin. Thank you very much, sir.
    I confess that within the Counterterrorism Office we have 
limited engagement on the issue of piracy and the issue of 
organized crime. I would be happy to get a response to you on 
that and to have the appropriate officials brief you on that.
    I will say that we have not detected any impact in our 
cooperation on counterterrorism from those issues. And in the 
course of what is a very close relationship with the Russians 
on counterterrorism, I think that we would certainly be able to 
discern. I will say that the counterterrorism cooperation was a 
bright spot in the U.S.-Russian relationship before the 
administration came into office and it has continued to be. And 
I think we have actually deepened our cooperation with the 
Russians on counterterrorism as Deputy Assistant Secretary 
Koumans can discuss as well. We have done a lot of work with 
them on aviation security and we are developing some agreements 
in that area,0 which we hope will come to fruition soon.
    And we cooperated closely on issues such as designating 
either al-Qaeda members or al-Qaeda-related terrorists and 
Taliban members at the U.N. under the 1267 regime. And we have 
also had a vigorous exchange of information on a wide range of 
important subjects of mutual interest, including 
radicalization, for example, in Central Asia. So I think it is 
a very good relationship and one where we are continually 
looking for ways to deepen it to the benefit of all of our 
citizens.
    Mr. Griffin. Have you seen any identifiable limits on 
Russia's willingness to cooperate on counterterrorism? Is there 
any threat to the United States, where they have been unwilling 
to show the cooperation that they have shown, for example, on 
al-Qaeda? Or have they been a partner in a sense that we have 
gotten to know other European allies as partners? Is there an 
asterisk by Russia?
    Ambassador Benjamin. No. I certainly wouldn't say there is 
an asterisk. I have to say that I have an excellent 
relationship with my counterpart in Russia, Presidential Envoy 
Anatoly Dobrynin, who is a first-class leader in this area and 
widely recognized as such.
    I wouldn't say there is an asterisk, but I would just 
reiterate that some of our relationships in Western Europe go 
back many, many decades, and obviously in a historical 
perspective we are still building the relationship with the 
Russian Republic, day by day. But I am quite pleased with the 
progress and I have every hope for a continued success in this. 
Let me put it this way: I haven't come up against any hard 
walls.
    Mr. Griffin. Do we have time for the Secretary to answer?
    Mr. Koumans. Thank you, Congressman Griffin.
    I will echo everything that Ambassador Benjamin said, both 
with respect to not having encountered any brick walls, and 
also the great depth of our partnerships in Western Europe vis-
a-vis the obviously more recent partnership with Russia.
    But that said, we have made some significant strides. We 
have put some additional ideas in front of the Russians. I can 
mention one of them in this setting and two additional ones I 
could mention in a classified setting.
    But the one I can mention here, it concerns multimodal 
transportation. The others concern transportation as well. 
Obviously, an important part of the Department's mandate having 
to do with securing the supply chain, securing aviation, 
securing airports, but also bridges, tunnels--it is a 
multimodal agreement--and sharing lessons learned and doing 
what we can to work more closely together in that field.
    Mr. Griffin. Right. Thank you, Mr. Chairman.
    Mr. Burton. One thing that you might want to comment--I am 
getting ready to yield to Mr. Bilirakis and then I will go to 
Mr. Deutch--is Georgia. I met with the Georgian Ambassador just 
a couple of days ago. And there are Russian troops, as you 
know, on Georgian soil. They are building barracks and they are 
bringing their families in. And you might consider giving us an 
update on that and what the long-term prognosis is, because the 
people in Georgia are very concerned about that in the future.
    With that, I will yield to Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it.
    Secretary Koumans, thank you of course for your service. In 
your testimony you noted that every week there are more than 
2,500 flights between the United States and Europe, and that 
DHS data show that the suspected terrorists on U.S. watchlists 
have tried to use European airports as a point of departure for 
the United States. And I apologize if you already covered this.
    Additionally, you note that DHS and its European partners 
maintain an effective partnership in terms of sharing 
information between governments.
    What alarms me is the pushback we seem to be getting from 
the EU regarding the sharing of personal data.
    Clearly the U.S. leads the world in its commitment to 
protecting individual privacy and civil liberties. Why does the 
EU believe that the sharing of data regarding suspected 
terrorists is a breach of privacy rights? And why will it take 
weeks or months to reach an agreement on passenger name 
records? Seems like a long time to me. If you can answer that 
question, I'd appreciate it.
    Mr. Koumans. I will try my best, Mr. Congressman. And as 
someone who has been involved in these negotiations in the 
previous iterations in 2006, 2007, I can share some of the 
sentiment.
    But it is important to recognize that we are dealing with 
the two different legal regimes, two different governmental 
structures, parliamentary structure, our three parts of 
government. They have privacy laws that differ from ours in 
some respects, despite the fact that the underlying foundation, 
as you said, is quite similar and there is much more that 
unites us than divides us.
    But there are distinctions. There are differences that are 
very important to them. And so they would like to go through 
and consider every aspect of the agreement carefully: How long 
the data is retained; what sort of data we collect; what it is 
used for; for what sort of crimes. It is a very detailed 
discussion and one that we look forward to concluding. And we 
are confident that we are quite close to an agreement. And I 
think that in the coming, as I say, months we will resolve it.
    Mr. Bilirakis. Mr. Ambassador, would you like to comment?
    Ambassador Benjamin. I think that really covers it. I would 
note that we have a new set of players, in a sense. We are not 
directly negotiating with the European Parliament but 
nonetheless, we are dealing with a new EU that is--in some ways 
has to explore all of these different issues and satisfy itself 
in a way that the pre-Lisbon EU did not. So it is an important 
period of mutual education, if you will.
    And I share Secretary Koumans' optimism that we will get 
there soon. I really do think that a lot of this is about 
learning how we do much the same thing in very different ways. 
And so I don't see this as a subject of great friction, but 
rather as an inevitable process to very large political unions 
working their way through some challenges.
    Mr. Bilirakis. Thank you.
    My next question is for Secretary Koumans.
    I am heartened to know that DHS keeps in close touch with 
the EU regarding countering radicalization and extremism, 
especially as it relates to the Balkans, particularly Albania. 
As you know, Albania is a hub of narcotrafficking, arms 
trafficking and human trafficking. Even Albania's Deputy 
Foreign Minister recently stated that Tirana, Albania, is close 
to being the most corrupt capital of the world.
    What has DHS done specifically within Albania to make it 
less of a haven for nefarious activities that could affect the 
security of the rest of Europe and the United States?
    Mr. Koumans. Thank you, Congressman Bilirakis.
    With respect to Albania--well, I should preface my remarks 
by saying that everywhere the Department of Homeland Security 
operates internationally, we work in partnership with the 
Department of State and under Chief of Mission authority if we 
are not under combatant commander authority, which--and Chief 
of Mission authority being the case in about 99 percent of our 
postings overseas.
    Countries such as Albania that do not have nonstop flights 
to the United States, where we do not have a large volume of 
trade, we are particularly dependent on the Department of State 
for our engagement. All of our training and technical 
assistance and capacity building we would do would be in 
concert with and funded by either the Department of State or 
the Department of Defense. And it has been--the engagement in 
Albania has been through the International Law Enforcement 
Academy, ILEA, in Bucharest. There has been a certain amount of 
training and capacity building that has taken place. I don't 
have the statistics at my fingertips but I am happy to take 
that question and provide that.
    Mr. Bilirakis. Please provide that information to me.
    Thank you, Mr. Chairman. I appreciate it.
    Mr. Burton. Well, thank you very much for being here today. 
We appreciate your testimony and the questions you answered so 
forthrightly. We will probably have another hearing on this 
subject down the road. I looked at the map of Europe and 
Eurasia the other day and there are huge questions that need to 
be addressed. So I look forward to hearing from you again in 
the future. Thank you very much for being here.
    We will now have our next panel of witnesses. We have Gary 
Schmitt.
    Thank you again, gentlemen. We appreciate it.
    Gary Schmitt is the director of the program on Advanced 
Strategic Studies at the American Enterprise Institute, and the 
director of AEI's program on American citizenship. Dr. Schmitt 
is a former staff director of the Senate Select Committee on 
Intelligence. He was the executive director of the President's 
Foreign Intelligence Advisory Board during President Ronald 
Reagan's second term. Dr. Schmitt's work focuses on longer-term 
strategic issues that will affect America's security at home 
and its ability to lead abroad.
    And our other panelist is Sally McNamara. She is a senior 
policy analyst in European affairs at The Heritage Foundation's 
Margaret Thatcher Center for Freedom. Ms. McNamara joined 
Heritage in 2006 and concentrates on American relations with 
the European Union and European countries, with particular 
focus on economic reform policy, trade issues, and the war on 
terrorism. She also analyzes NATO's evolving role in post-Cold 
War Europe. And before coming to America in 2004, Ms. McNamara 
served as chief parliamentary aid to Roger Helmer, a member of 
the European Parliament in Brussels.
    And maybe down the road you can give us some advice, 
because we are going to be going to Brussels and you will have 
to tell us what we can expect and what we should look for when 
we get there.
    With that, I will yield to Dr. Schmitt for his opening 
comments.

   STATEMENT OF GARY J. SCHMITT, PH.D., RESIDENT SCHOLAR AND 
  DIRECTOR OF ADVANCED STRATEGIC STUDIES, AMERICAN ENTERPRISE 
                           INSTITUTE

    Mr. Schmitt. If I can begin by offering my advice, you 
should eat the mussels.
    Mr. Burton. Eat the mussels in Brussels. Very poetic. I 
don't like mussels, but it is very poetic nonetheless.
    Mr. Schmitt. Thank you, Mr. Chairman, for the opportunity 
to testify today.
    The question I will be addressing is whether there are 
major strategic differences between how the U.S. and its 
closest European allies handle the threat of Islamist 
terrorism.
    Admittedly, this is a broad topic and so I am more than 
happy, after Sally and I finish, to talk about other topics in 
more detail as you wish. My testimony is largely derived from 
studies that I commissioned at AEI and which resulted in a 
volume published last summer entitled, ``Safety, Liberty and 
Islamist Terrorism: American and European Approaches to 
Domestic Counterterrorism.''
    There were two principal reasons I undertook the study. 
First, I wanted to see if there were lessons to be learned from 
the way other democracies, especially those that had dealt with 
terrorism in the past, were handling the new jihadist threat.
    My second goal was to examine the criticism that America's 
response to terrorism was overly militaristic, while Europe's 
was grounded in a more moderate paradigm, often shorthanded as 
the rule of law approach.
    On the first, somewhat to my surprise, the value of 
comparing our respective approaches of our allies with the U.S. 
provided few lessons learned when it came to policies and 
practices. The reasons for this are many: Differences in legal 
system, different national histories, different constitutional 
structures and differences in the perceived threat.
    With that said, two points stood out to me. The first is 
that in each European country I looked at, it was clear that as 
a threat grew, substantial adjustments were made by each 
government to overcome what we in the U.S. refer to as ``the 
wall'' between intelligence and law enforcement.
    The second thing that stood out is that the U.S. is 
relatively atypical in not having a separate domestic 
intelligence agency.
    Now on the second broader issue, whether the U.S. or 
European allies have widely divergent approaches to 
counterterrorism, I found this argument to be at best 
simplistic. First, there is the simple fact that each of our 
major allies has military forces deployed in Afghanistan with 
the explicit purpose to prevent that country from becoming once 
again a safe haven for terrorism.
    In the case of France, for example, it has deployed its 
military in counterterrorist operations outside of France on at 
least three occasions over the past 1\1/2\ years. Even the 
Germans, perhaps the most reluctant ally to engage in offensive 
operations in Afghanistan, contributed special operation forces 
to help remove the Taliban from power in the wake of 9/11. And 
over the past year, Berlin has eliminated many of the caveats 
that it once had in place to prevent German forces from 
engaging in offensive operations as part of its current Afghan 
mission.
    So while there is certainly a difference in the scale of 
what we do militarily compared with our allies, it is not the 
case that they have only a law-enforcement approach to 
counterterrorism.
    Next, while it is certainly true that Europe has addressed 
the problem of terrorism principally through law enforcement, 
it is equally important to understand that the laws and 
practices that they rely on are more expansive than those often 
found here in the United States. In short, they don't treat 
terrorism as just another crime.
    Without going into detail here, I would argue that when one 
looks at the laws related to speech, electronic surveillance, 
data sharing, preventive arrests, the monitoring of mosques, 
the overall approach of Europe is as aggressive or more 
aggressive than that of the United States. Even Germany, which 
is perhaps the least forward leaning in its counterterrorism 
laws, has utilized ethnic profiling and data mining.
    Moreover, Spain, U.K., and France all allow detention of 
terror suspects for days of interrogation before being required 
to bring formal charges. Indeed, in the case of Britain, 
suspected terrorists, if for one reason or another cannot be 
put on trial or sent back packing to another country, may be 
put under a form of house arrest for up to 2 years at a time.
    Let me conclude by noting that France, arguably with 
Europe's most effective domestic counterterrorist effort, that 
system rests on France's investigative magistrates. This is an 
office that combines an array of powers, intelligence, 
investigative and prosecutorial, all in one person.
    The only American office that bears some resemblance is 
that of an independent counsel. But unlike an independent 
counsel, whose mandate is tied to a particular case and hence 
limited in time, the investigative magistrates who handle 
terrorism in France stay in their position for years, building 
up expertise and discretionary power that few Americans would 
be comfortable with.
    My point finally is not to suggest that these are laws, 
practices or institutions that the U.S. should adopt; rather, 
simply to note that when we think about our own response to 9/
11, we should recognize that the United States is not an 
outlier in comparison with our Democratic allies. Indeed, since 
9/11, we are all in the business of preemption.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Schmitt follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              


    Mr. Burton. Thank you, Dr. Schmitt.
    Ms. McNamara.

    STATEMENT OF MS. SALLY MCNAMARA, SENIOR POLICY ANALYST, 
  EUROPEAN AFFAIRS, MARGARET THATCHER CENTER FOR FREEDOM, THE 
                      HERITAGE FOUNDATION

    Ms. McNamara. Mr. Chairman, distinguished members of the 
committee, with your agreement, I request that my prepared 
testimony be entered for the record and I just make brief 
remarks to you today.
    Mr. Burton. Without objection.
    Ms. McNamara. Thank you very much.
    Mr. Chairman, America needs allies to win the war on 
terrorism. Many of America's strongest allies in this fight are 
in Europe, first among them, the United Kingdom. But in 
addition to individual nation states, the EU is also a partner 
of significance to the United States.
    Before 9/11, just 6 of the EU's then 15 members recognized 
terrorism as a special offense. After 9/11, EU member states 
agreed on a common definition of terrorism, which denies 
terrorists the sanctuary of border hopping to another member 
state where terrorism was not previously regarded as a special 
offense.
    Most importantly, the EU has also produced a list of 
persons groups, and entities whose financial assets will be 
frozen and to whom financial services are denied. This has 
proved to be one the EU's most valuable contributions to 
counterterrorism to date, as it has denied terrorists the 
freedom to operate and to raise funds in Europe.
    The EU has also constituted several new offenses in order 
to confront homegrown terrorism: Namely, the criminalization of 
the public provocation to commit a terrorist offense; 
recruitment for terrorism; and training of terrorists.
    However, the EU has also advanced several unnecessary 
programs and institutions, including Europol, Eurojust, SitCen 
and the European Arrest Warrant. These programs divert the 
antiterrorism resources of EU members states away from what 
they really should be doing.
    Furthermore, the EU has pushed a radical human rights 
agenda that has weakened rather than strengthened members' 
counterterrorism efforts. For example, British judges have 
refused to enforce control orders as mandated under the UK's 
2000 Terrorism Act on the grounds that 18-hour curfews may 
breach the European convention on human rights.
    The U.S. should be especially weary of the EU's radical 
political agenda in this regard because of the way EU spends 
money inside the United States for the purposes of furthering 
its favored political causes. The EU funds nonprofits and 
advocacy organizations to advance, among other things, 
ratification of the Rome Statute and membership on the 
International Criminal Court, your abolition of the death 
penalty, international legal norms, the closing of Guantanamo 
Bay, and U.S. detention and rendition policies.
    After 9/11, there was an unprecedented display of 
transatlantic solidarity, but since then, the EU-U.S. 
counterterrorism relationship has been marked as much by 
confrontation as it has by cooperation. The EU has attempted to 
frustrate key U.S. counterterror policies, including the 
Passenger Name Records Agreement, the Terrorist Finance 
Tracking program, which is also known as the SWIFT agreement, 
and U.S. renditions policy.
    In terms of the PNR agreement, the European Parliament has 
now forced the U.S. to enter into negotiations on a fourth 
iteration. My testimony today is that the European Parliament 
should stop its nonsense and approve the existing deal, from 
2007, without modification.
    With regard to SWIFT, the program, which is essentially a 
data-sharing program for the purposes of tracking terrorist 
financing, has been a major success. Spain has admitted that as 
a result of a SWIFT lead passed to them by the Americans, they 
were able to prevent a terrorist attack in Barcelona.
    However, MEPs have forced concessions on this program, too, 
which has limited its usefulness.
    The EU does understand that frustrating the flow of money 
is a powerful weapon against terrorism. If the EU and the U.S. 
list you as a Foreign Terrorist Organization, you are cut out 
of the world's biggest financial markets, which is why it is 
impossible to understand the EU's refusal to proscribe 
Hezbollah as a Foreign Terrorist Organization. Europe's 
willingness to turn a blind eye to Hezbollah's activities in 
Europe is unconscionable. Hezbollah's secretary general, Hassan 
Nasrallah, has even stated that without European support, and I 
quote him, ``our funding, moral, political and material support 
would dry up.''
    With regard to detention and renditions policy, I am sure 
the honorable members here today remember the European 
Parliament's 2006 witch hunt investigation when Poland and 
Romania were threatened with an unprecedented loss of voting 
rights within the European Council if they were found guilty of 
hosting CIA facilities. No statement has been issued to clarify 
the EU's position on this in light of reports that these sites 
could have been used to find information involved in the 
successful operation against Osama Bin Laden this month.
    All this is to say that bilateral relationships, especially 
in terms of intelligence sharing and conducting operations, are 
more important than ever. The Anglo-American relationship 
stands out in particular for the remarkable ease with which 
intelligence officers operate together, a fact that has been 
publicly acknowledged by successive Presidents and Prime 
Ministers.
    To achieve a more cooperative EU-U.S. relationship on 
counterterrorism, therefore, I would recommend the following 
policies to the European Union, which you may want to bear in 
mind on your trip. The European Parliament should approve the 
2007 EU-U.S. PNR agreement without modification. The current 
EU-U.S. negotiations to adopt an umbrella agreement on data 
sharing should simply accept U.S. data privacy standards as 
adequate. I agree with the Honorable Member Bilirakis on that.
    The EU should also add Hezbollah to its list of Foreign 
Terrorist Organizations and EU member states should exclude 
foreign-born individuals, who engage in any terrorist 
activities. Thank you very much.
    [The prepared statement of Ms. McNamara follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Burton. Now, you are with the Margaret Thatcher----
    Ms. McNamara. Center for Freedom.
    Mr. Burton. Boy, they picked the right one for that job, I 
will tell you. You are a tiger.
    Ms. McNamara. Thank you.
    Mr. Burton. Margaret Thatcher would be proud.
    I had a whole bunch of questions, but I was mesmerized by 
some of the things that you said.
    First of all, it is very interesting; you think that if the 
EU was more cooperative in trying to cut off funds to 
Hezbollah, that we could have that operation or that 
organization dry up because they have said so themselves.
    Ms. McNamara. I don't think that we could end Hezbollah, 
but we could make things incredibly difficult for them. They 
use Europe as a logistical base. They use it as a staging 
point, and the United States has passed legislation requesting, 
time and again, that the European Union list Hezbollah as a 
Foreign Terrorist Organization.
    That needs to happen, and it needs to happen sooner rather 
than later. We have seen no fruits of any sort of engagement, 
except the fact that Europe is nothing more than, as they say 
themselves, a political, a moral and fundraising base.
    Mr. Burton. Wow.
    I want you to make notes on everything this young lady 
said, because when I go to Brussels, I want your statement. I 
am certainly going to utilize some of that.
    Let me ask you a couple of other questions and you can 
comment too, Dr. Schmitt, if you would like. One of the things 
that concerns me is what I asked the first panel, and that is 
across the northern tier in Africa and in the Persian Gulf 
area, we see the rise of the ``freedom movement,'' the ``Arab 
Spring'' movement.
    I would like your take on that and how that will--what will 
the end result be if all of these uprisings are successful?
    I am very concerned, I know that Muammar Ghadafi has been a 
tyrant for a long time, but we took him off the terrorist list 
a few years ago. And now, we are participating with France and 
England in running him out of office. There is a major civil 
war going on over there.
    In Egypt, we have seen a big change. Mubarak is gone, and 
we are looking forward to elections in, I believe, September 
and later on in the year.
    We see changes possibly in Syria and elsewhere.
    My big concern, as you heard from the first panel, is what 
are we going to have in the future. Because I am very concerned 
that more radical elements may be on the horizon. I don't know 
what we could do to predict that or to completely eliminate 
that possibility, but I would like to have your ideas on how we 
should deal with this unusual state of affairs that are taking 
place all throughout that region right now. And as I said 
before, it is not just because of security and stability in the 
Middle East; it is because of the energy needs of the United 
States. We are so dependent, at least in large part, on energy 
from the Middle East. And if we see radical elements take over 
in Syria, and ultimately, possibly in Jordan, in Egypt, in 
Libya and across that area, and then we also have some problems 
in Yemen, as you know, big problems in Yemen, and in the 
Persian Gulf, Oman and elsewhere. I would like to know what you 
think, from your think tanks' perspective, what we can expect 
and what we should be doing to stop the possibility of radical 
elements taking over. I know that is a big, big question, but 
it is one I think is extremely important.
    Mr. Schmitt. That is a big question and a question whose 
response from a lot of these countries will vary from different 
circumstances. We will have different players and different 
ways of influencing outcomes in each country. But I am----
    Mr. Burton. Let me interrupt. We have been told by our 
intelligence people al-Qaeda is in Libya. People, who have 
fought in Afghanistan that are al-Qaeda, are now in some 
leadership positions with some of those units and tribes in 
Libya. And in Egypt, the Muslim Brotherhood is an organization 
that in the past has been looked upon as a radical 
organization. The same thing is true over in Syria; they are 
concerned about that.
    So you do have large radical elements in those areas. They 
may be different in some respects, but I think we, as 
Americans, ought to have some idea of where we are heading, 
especially if we are talking about giving support to the rebels 
in Libya and the democratic movement in Egypt and possibly 
supporting movements in these other countries as well.
    Mr. Schmitt. I would say----
    Mr. Burton. Excuse me, we get one view from the State 
Department and from Homeland Security; this is the American 
Government's position. But you folks are experts in think tanks 
that work on this all the time, and I would like to have your 
candid observations in this area.
    Mr. Schmitt. Well, to start, I am quite worried that the 
``Arab Spring'' is going to turn into an ``Arab winter,'' and I 
mean that in the worst possible way, which is precisely the 
point you are making. I have had a number of conversations with 
friends in European governments and the European Union about 
their plans and what they want to try to accomplish in wake of 
all these revolutions. And what you get from them is mostly, 
``We know that we basically had all these failed policies for 
the last 10 years, including our Neighborhood Policy.'' So then 
you ask them, ``Well, what are you going to do now?'' and they 
have no answer.
    So there is a passivity on the part of Europe and our 
European allies about exactly how to handle the situation. They 
are still trying to figure out what kind of policies we are 
going to implement, so that is not a good sign.
    On the American end, I would say that I think, to be frank, 
the administration has something of a hands-off approach to 
what is going on, out of the fear that they will look like they 
are being American ``colonialists,'' so to speak.
    I don't think that is the way to handle the situation. If 
you want to prevent the worst from happening, you have to get 
involved. It doesn't mean you will always succeed, but I do 
know if you are not deeply involved in trying to move things 
forward in the right way, you won't succeed. You won't have the 
success that you want. And you wind up with radical elements 
actually. Because they are more organized and more ruthless, 
they will wind up being the dominant figures in these 
revolutions as we move on.
    So I think we are actually in a quite dangerous period, 
where we have on-going revolutions but both the United States 
and our allies are acting way too passively when it comes to 
these changes.
    Mr. Burton. Ms. McNamara.
    Ms. McNamara. I absolutely agree with my friend, Dr. 
Schmitt. American leadership matters. I think there has been 
this idea that if America takes a back seat, it won't look like 
a colonialist. Well, I am afraid there is a difference between 
taking a back seat and looking weak.
    Europe, I think, can only succeed if America is involved, 
and I think American leadership is desperately needed in the 
region.
    With regard to Libya, I think Libya is a key test, because 
if Libya goes the right way, I think it will provide an 
example.
    I do agree, sadly, that I don't think we have entirely our 
eye on the ball.
    We have seen recently President Obama, President Sarkozy 
and Prime Minister Cameron put out a big paper saying, Ghadafi 
absolutely has to go.
    Well, okay, I agree. How are we going to do it?
    And I don't think that is entirely clear to us. I would 
like to see a stronger objective. I would like to see greater 
American involvement.
    One thing that I am not in a position to comment on and you 
may know yourself, surely we have intelligence on Libya and the 
opposition in Libya. We have been there for a number of years 
now. We have had a failed engagement strategy, but the result 
of that is that we probably have a lot of Western involvement 
and a lot of Western intelligence. We probably know something 
about the opposition, even if we don't know everything about 
them.
    We need to start looking now; who do we think is in our 
best interest? Who are the Libyan people going to support? I 
don't know this is a civil war. It looks to me as if Ghadafi is 
just massacring his own people. I think Libya will be a key 
test case, and that is why I would like to see greater 
involvement.
    Finally, the EU has comprehensively failed. A few years 
ago, we had a lot of excitement around this thing called ``the 
Mediterranean Union.'' It was hailed as one of the EU's 
greatest strategies that was going to engage North Africa, and 
make it more democratic. There was going to be great energy 
projects. We were going to import solar power. I mean, some of 
the stuff we were saying was ludicrous. As it happened, we 
spent a lot of money and not seen any results.
    David Cameron has recently asked the European Union to look 
at its entire aid program, look where the money is going and 
what effect it has. The provisional reports that are coming 
back state that their aid projects are absolutely horrific. 
Where they are not spent corruptly, they are spent badly, and 
it is highly ineffective in terms of what we want to do: 
Promote our values, relieve poverty, that sort of thing. So I 
think the EU needs to take a root and branch look at its aid 
policies and change them.
    Mr. Burton. Mr. Bilirakis.
    Mr. Burton. I may have another question or two after my 
colleague.
    Mr. Bilirakis. Yeah, I am not going to be long.
    Mr. Burton. Take your time.
    Mr. Bilirakis. Thank you, Mr. Chairman, I appreciate it.
    I want to pose the same questions that I posed to the 
previous panel. Maybe I can ask Ms. McNamara first. Again, on 
the EU dragging its feet and sharing the data as it relates to 
the passengers' name records, can you elaborate on that, 
please?
    Ms. McNamara. In my longer testimony, I have outlined what 
happened and the different iterations we have been through, and 
it looks almost like a fairytale. The Europeans want this. The 
Americans agree, even though they think it will limit the 
program. And the Europeans once again say, not good enough.
    Originally, America asked for 38 pieces of data. You have 
now said, okay, give us 19. This is mandated by U.S. law that 
this information has to be provided in advance, that is why, in 
my view, it happened. So good one for doing that. But the 
Europeans don't like this program. A Polish MEP came to 
Heritage in late February last year. Under the Lisbon Treaty, 
new powers granted to the European Parliament saw them 
immediately strike down the third iteration of the PNR 
agreement. And he said, ``When the European Parliament did 
this, there was whooping and cheering in the chamber.'' He 
said, ``I had thought we had won the World Cup or something.'' 
And he said, ``All I heard was, `We have got those Americans,' 
as though it was `a them and us.' And the `us' isn't the 
terrorists; the `us' is the Americans.''
    The most absurd part about this, we act as if we are trying 
to just protect Americans. We are not. We are trying to protect 
people in the EU, too. We are trying to protect the crew, the 
staff pilots. If al-Qaeda is intent on crashing the plane, as 
we saw awfully in Pennsylvania, if they can't manage to get 
their target; they will crash it wherever, and kill as many 
people as possible. This is about protecting European people as 
well as Americans.
    I think this is about being muscular for the European 
Parliament. I worked in the European Parliament for 3 years, 
and I can tell you, I never experienced anti-Americanism like 
it in my entire life. I think this is about the European 
Parliament being juvenile. They have got these new powers, and 
they want to use them. I think that the PNR agreement that we 
have in place, I think it should be not only agreed; I think it 
should be extended for another 7 years.
    I would like to see more pieces of information, but that 
probably won't happen. The agreement we have got, we have 
testimony that it will suffice. We even have the EU Foreign 
Minister saying on record, before she was appointed, that this 
is a vital program. She testified in the House of Lords that 
the PNR agreement was a vital program. And now, all of a 
sudden, we are seeing pushback on it. I think it's wrong.
    Mr. Bilirakis. Thank you.
    Dr. Schmitt.
    Mr. Schmitt. Sally is absolutely right about the new EU 
Parliament exercising its muscles since the Lisbon Treaty. I 
think one of the things that we sometimes don't appreciate is 
the degree to which there has been sort of very fundamental 
changes in EU governing structures with the Lisbon Treaty. It 
is called a treaty, but it is in fact very much a 
constitutional agreement.
    I would also say that along with the Parliament, that one 
of the difficulties we have is with the European Court of Human 
Rights, another body which is relatively independent and not 
responsible directly to home governments. And it has produced a 
lot of decisions which are very problematic when it comes to 
security.
    I do know that, if I was in government now, it would be a 
very complex thing to handle. I mean, we do have, I think it is 
fair to say, very good bilateral relations with a lot of 
countries, even countries that we were very much in 
disagreement with over Iraq and other matters, but when it came 
to intelligence sharing and security matters behind the 
curtain, they were very cooperative.
    The EU element really does make this a much more complex 
game. Whether the EU Parliament matures or not, that is an open 
question. But right now it is a very difficult obstacle in 
getting these security matters accomplished.
    Mr. Bilirakis. Thank you.
    Ms. McNamara. I am sorry, there are a couple of things that 
I forgot that I would like to say.
    You recently, a few years ago, added new countries to the 
Visa Waiver Program. I think the Visa Waiver Program is a 
fantastic thing. Not least of all, it is a public diplomacy 
thing. Familiarity breeds favorability. When people come to the 
United States, they find they love Americans. They are great. 
They want to come back. They want to spend money. Everyone is a 
winner.
    However, the part of having all these flights coming in, 
you need information, and you need to stop the bad guys from 
coming. And so, when you upgraded the Visa Waiver Program, you 
upgraded the security requirements, and it has been very, very 
successful.
    At the time, I remember, I held a public program, and we 
hosted the Honorable Richard Barth. The EU was in the audience, 
and a commission official stood up and said, we might take 
member states to court because they have no right to be giving 
the Americans this information; it is up to the EU how much 
information they get.
    The EU again is trying to supernationalize visa policy. 
Because, I think Dr. Schmitt is right, at a nation state level, 
it works pretty well; the EU is a complicating factor.
    Now, one warning I will give here--I am afraid the EU might 
have actually listened to Heritage Foundation for once. For a 
number of years, I have recommended that there should be an 
umbrella agreement in terms of respecting American data 
standards--data transfer as good standards, that Europeans can 
accept that the way the Americans treat data is good enough. 
The EU and U.S. is now negotiating that umbrella agreement.
    However, I am very afraid that that umbrella agreement is 
going to turn into the EU trying to limit future agreements. 
Instead of it just being a generic agreement saying that we 
accept that America has good ways of treating data, they are 
going to say, only if it is limited to being held for a certain 
amount of days, narrowly providing the scope that you can 
request information.
    I am afraid that this umbrella agreement will be a shopping 
list of restrictions, rather than something that makes these 
agreements easier, and I would caution you to be very careful 
on that.
    Mr. Bilirakis. Thank you very much.
    Dr. Schmitt.
    Mr. Schmitt. I apologize, but just one big larger point, 
which is that, if a bomb, God forbid, goes off in London, it is 
not the EU Parliament that is held responsible. It is the 
members of Parliament of the United Kingdom. And I think that 
is a really fundamental distinction and problem, which is that 
you have members of a governing body in the EU Parliament who 
are elected on all kinds of grounds but rarely on protecting 
the citizens of a particular country.
    Mr. Bilirakis. Thank you.
    Mr. Chairman, one more question?
    Mr. Burton. Sure.
    Mr. Bilirakis. Thank you.
    Again, the question with regard to Albania, what do you 
suppose the Department of State and DHS are doing to make a 
dent in stamping out the human trafficking, the 
narcotrafficking and the arms trafficking that characterize the 
economy in countries, such as Albania?
    Mr. Schmitt. I really don't have the expertise to be able 
to answer that with any specificity.
    My suspicion is that this is something they have given over 
to the European Union to take responsibility for since 
basically the Europeans face the brunt of it. Doesn't mean that 
we don't have responsibility, but if I had to guess, given the 
resources, I would say that is probably something they are 
looking for Brussels to address less than we are.
    Mr. Bilirakis. Ms. McNamara, would you like to comment?
    Ms. McNamara. The European Union does actively deal with 
Albania.
    I spend the vast majority of my time talking about what the 
EU shouldn't be doing. So let me change that and talk about 
what the EU should be doing. The EU should have a sensible 
neighborhood strategy. The one thing where I think the EU could 
be helpful is in its Eastern neighborhood and in the Balkans. 
And, I would like to see them focusing more of their aid and 
more of their attention and more of their energy on that area 
of the world, instead of having this idea that they are going 
to have a unified Middle East policy and Catherine Ashton is 
going to save the world. Lord help us, it is not going to 
happen. So I would like to see them have a more proactive 
strategy in the Balkans.
    In terms of where the United States can work, I think NATO 
is going to be a superb format for this. What we have found is 
that countries, who have got into NATO, and Albania is a recent 
member of NATO, they generally do very well inside the 
alliance, because they pick up best practices; they liaise with 
their colleagues. It is a very easy way of sharing information, 
of saying, hey, we don't like this, you better do something 
about it, without making it an official diplomatic hoopla. So I 
definitely think you should use your channels within NATO to 
advance that, all of the allies and especially the United 
States.
    Mr. Bilirakis. Thank you very much, thanks for the 
testimony. Appreciate it.
    I yield back, Mr. Chairman.
    Mr. Burton. My colleague and I are going to visit Greek 
Cyprus and Turkey before too long, and we will probably have 
some questions for you down the road.
    One of the troubling things, at least it troubles me, that 
you just indicated, was that the EU seems to want to usurp some 
of the intelligence capabilities or the dissemination of 
intelligence information to the United States or between the 
United States and these countries. That is troubling because, 
as you said before, we have had a pretty good working 
relationship with most of those European countries regarding 
intelligence gathering. Is this a problem that is going to 
increase? Is it going to be more difficult to get intelligence 
data because of the EU? I was not aware of this kind of problem 
until today.
    Ms. McNamara. It would be an overstatement for me to say to 
you that the European countries aren't going to give you 
information because of the EU. Let's face it, as Dr. Schmitt 
said, it is the governments of these countries who have to 
protect their citizens.
    Mr. Burton. Sure.
    Ms. McNamara. And so ultimately I think intelligence 
services are working pretty well.
    In terms of the EU trying to limit that, it is definitely 
the case. They have stated their outright goal is to have one 
judicial system in Europe. Now that might sound great, but in 
reality, it is not going to happen. Could you imagine if you, 
Mexico and Canada, all of a sudden, tomorrow, said, we are 
going to have one judicial system? Most people would think it 
is quite nuts. There is a reason why you have differences. It 
is the same in Europe. So the EU has institutionalized things.
    We have this thing called SitCen. We have Europol. We have 
Eurojust, all of these things, which most British people don't 
even know about; these are trying to get in on the intelligence 
game. And I think that is hugely problematic.
    Now, one thing I will say to you, the EU occasionally 
operates with the height of hypocrisy, and the European Arrest 
Warrant is one of those things. We have had a yearlong 
investigation by the European Parliament over U.S. rendition 
practices. Oh, the Americans are breaking the law; they are 
doing this, and they are doing that.
    The European Arrest Warrant means that one member state, 
let's take Greece, for example, can request from Britain any 
person be extradited to Greece without a single bit of prima 
facie evidence. Does this happen? You betcha; 1,800 British 
citizens have been rendered to countries around Europe from 
Britain in the last years. We were told that this was an 
antiterrorism measure; it is not. The vast majority of those 
people, who are being rendered to other European countries, are 
extradited because they left a gas station without paying the 
bill. Now, I know gas prices are high, but it ain't a reason 
for extradition, let's face it.
    Mr. Burton. 1,800 you said.
    Ms. McNamara. 1,800, I believe, is the latest number.
    Mr. Burton. That is because of the EU's policies?
    Ms. McNamara. Absolutely, 100 percent, the European Arrest 
Warrant. It was a flagship project by the European Union, meant 
to be about terrorism, and it has not been about terrorism. 
Scotland Yard has said, complying with all of these warrants, 
finding the people, sending them over, all of that sort of 
thing, it has taken our resources up. That is what I was 
testifying about diverting the resources, the key resources 
from member states to do ridiculous things like this. I would 
rather the U.K. be using its antiterrorism resources to look at 
who is preaching hate, to render terrorists; not to get people 
who haven't paid their bill at a petrol station.
    Mr. Burton. Let me just ask both of you this question, what 
in your opinion should we do as far as intelligence-gathering 
capability--take the CIA or FBI or DIA--what should we be doing 
to make sure that there is complete cooperation between the 
European countries that are at risk, just like we are, and not 
have to worry about there being an impediment to getting that 
intelligence information? I guess maybe I am not making the 
question clear.
    I am really concerned, after hearing what you said today, 
that information that we might need in order to stop somebody 
like bin Laden, or one of his minions, from perpetrating 
another attack on England, France, United States, wherever they 
happen to be, that we might be at risk of not being able to 
stop that because there is an impediment to this sharing of 
information. So if you could just give me a reassuring answer 
that our intelligence sharing will overcome these impediments.
    Ms. McNamara. My number one recommendation would be to 
maintain your bilateral alliances.
    Mr. Burton. With individual countries?
    Ms. McNamara. With individual countries.
    Mr. Burton. And not go through the EU?
    Ms. McNamara. With all due respect to President Obama, when 
he first came into office, I think he found a lot of enthusiasm 
for the EU. He thought this, you know, is a great multilateral 
alliance, and I think he has slowly realized over time, you 
know what, sometimes it is best to go through your bilateral 
alliances.
    In my view, the vast majority of time, for things like 
intelligence, which is so important, you must maintain those 
strong alliances. And there is a way of doing that; Poland is a 
perfect example. Poland is such a strong ally. I met a Polish 
guy a few weeks ago who said to me, can you tell me, Sally, why 
is it okay for 2,000 Polish soldiers to be fighting alongside 
the Americans in Afghanistan where they don't need a visa, but 
we need a visa to get into the United States, when the guys in 
the Czech Republic next to us, they can just get in on visa 
waiver?
    These things are often interlinked. I think VWP is good 
public diplomacy. I think it is good to maintain your strong 
bilateral alliances. And also, Members of Congress, you have a 
fantastic position here. I would not be afraid to push back 
with the European Parliament. What they have done over the 
Passenger Name Record agreement has endangered a key 
counterterrorism policy. And I think you have every right to be 
angry about that. And you have parliamentarians on your side, 
particularly the European Conservatives and Reformist Group. It 
is a new inter parliamentary grouping in the European 
Parliament. And they are some of the most pro-American groups.
    Mr. Burton. Can you give me some information on that or 
give it to my staff so we have that?
    Ms. McNamara. Absolutely.
    Mr. Burton. Dr. Schmitt.
    Mr. Schmitt. My impression from, again, when I was doing 
research on the book that we published last year and I held 
extensive discussions with intelligence and security officials 
in London and Berlin and Madrid and Paris, my impression was 
that the cooperation at the bilateral level was still very high 
and that there--this doesn't make it easier, but there is a 
considerable amount of rhetoric that points in one direction 
when operationally things are going quite well in another 
direction.
    So there is a little bit, as Sally was saying, hypocrisy 
and what public officials will say, but in fact what they are 
actually doing on the ground----
    Mr. Burton. Let me end up by saying this, if you at your 
various organizations come up with any information that would 
lead to you believing that there is an impediment to the United 
States getting intelligence data that we need or our allies 
need, would you let this subcommittee know? Because we would 
immediately contact Homeland Security and the State Department 
to make sure that they knew that we were concerned about this.
    Mr. Schmitt. If I could just add one little thing; one of 
the problems we found after 9/11 was that the European Union 
was a security risk in the sense that, the borders are so open 
between the member states, there was a need, in fact, to work 
with the EU to sort of strengthen their capacity to exchange 
information and so there wouldn't be this sort of hole in the 
system where people had safe havens and could move around in 
ways that were a security risk.
    I think it has been clear that we think there are real 
problems in the European Union's handling of some of these 
things, particularly in the Parliament and the court. On the 
other hand, there is a need to work with them precisely because 
the EU is not going to go away.
    Mr. Burton. Okay. I want to thank both of you for your 
testimony. It has been very enlightening and invigorating.
    I would like to say for the record that Representative 
Meeks and Engel, who are minority members of the committee, 
would have been here, but they are with the President at Ground 
Zero in New York, so they extend their apologies.
    Once again, thanks for being here, and we stand adjourned.
    [Whereupon, at 4:09 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    [Note: Responses to the above questions were not received prior to 
printing.]

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
    [Note: Responses to the above questions were not received prior to 
printing.]

                                 <all>

</pre></body></html>
